                                      AUDIT




 INDEPENDENT BIENNIAL AUDITORS’
 REPORT ON THE AUDIT OF
 EXPENDITURES AND OBLIGATIONS USED
 BY THE SECRETARY OF THE INTERIOR IN
 THE ADMINISTRATION OF THE WILDLIFE
 AND SPORT FISH RESTORATION
 PROGRAMS IMPROVEMENT ACT OF 2000
 FOR FISCAL YEARS 2007 THROUGH 2008
 AND FISCAL YEARS 2009 THROUGH 2010




Assignment No.: X-IN-FWS-0007-2010   April 2011
               OFFICE OF
               INSPECTOR GENERAL
               U.S.DEPARTMENT OF THE INTERIOR



                                                                                             APR 0~ 2011
Memorandum

To:            Rowan W. Gould
               Director, U.S. Fish and Wildlife Service

From:          Kimberly Elmore          ~~ ~
               Assistant Inspector General for Audits, Inspections, and Evaluations

Subject:       Independent Biennial Auditors ' Report on the Audit of Expenditures and
               Obligations Used by the Secretary of the Interior in the Administration of the
               Wildlife and Sport Fish Restoration Programs Improvement Act of 2000 for
               Fiscal Years 2007 Through 2008 and Fiscal Years 2009 Through 2010
               Report No. X-IN-FWS-0007-2010

Introduction

        This memorandum transmits the results of the Brown and Company, CPAs, PLLC
(Brown and Company) biennial auditors ' report to address the performance audit objectives
related to the expenditures and obligations used by the Secretary of the Interior (Secretary) in the
administration of the Wildlife and Sport Fish Restoration Programs Improvement Act of2000
(Act), Public Law 106-408, for fiscal years 2007 through 2008 and fiscal years 2009 through
2010. The U.S . Fish and Wildlife Service (FWS) has administrative responsibility for the
programs covered by the Act.

        The Act requires the Inspector General to procure the performance of independent
biennial audits of the expenditures and obligations used by the Secretary in the administration of
the Act. Under a contract issued by the U.S. Department of the Interior (DOl) and monitored by
the Office of Inspector General (OIG), Brown and Company, an independent public accounting
firm, performed the required audit of the expenditures and obligations for fiscal years 2007
through 2008 and fiscal years 2009 through 2010. The contract required that the audit be
performed in accordance with the "Government Auditing Standards" issued by the Comptroller
General of the United States.

Results of Independent Audit

        In its biennial audit report dated December 15, 2010, Brown and Company identified
deficiencies in each of the fiscal years audited that were a result of ineffective internal controls
and unsupported costs. FWS did not ensure that existing internal controls were fully
implemented or effective. In addition, FWS did not properly maintain appropriate documentation
to support the expenditures and obligations incurred in the administration of the programs. As a
result, Brown and Company was unable to determine whether expenditures and obligations



                         Office of Audits, Inspections. and Evaluations   I Washington. DC
incurred in the administration of the Act were appropriate or allowable and, therefore, in
compliance with the requirements of the Act. The report contains two recommendations that, if
implemented, should resolve the findings.

Status of Recommendations

       In its February 25, 2011 response to the draft report, FWS generally agreed with the two
recommendations (see Enclosure). We will refer the two resolved recommendations to the
Assistant Secretary for Policy, Management and Budget for tracking of implementation (see
Attachment).

Evaluation of Brown and Company Audit Performance

       To fulfill our monitoring responsibilities, the OIG:

           •   reviewed Brown and Company’s approach and planning of the audit;
           •   evaluated the qualifications and independence of the auditors;
           •   monitored the progress of the audit at key points;
           •   participated in periodic meetings with FWS management to discuss audit
               progress, findings, and recommendations;
           •   reviewed Brown and Company’s audit report; and
           •   performed other procedures we deemed necessary.

       Brown and Company is responsible for the attached auditors’ report and for the
conclusions expressed in therein. We do not express an opinion on findings and
recommendations nor on Brown and Company’s conclusions regarding effectiveness of internal
controls or compliance with laws and regulations.

Report Distribution

        The legislation, as amended, creating the OIG requires semiannual reporting to Congress
on all audit reports issued, actions taken to implement audit recommendations, and
recommendations that have not been implemented. We will include this report in our next
semiannual report. Distribution of this report is unrestricted and copies are available for public
inspection.

        As required by the Act, this report was transmitted to the Secretary and the Acting
Inspector General on March 11, 2011, and has been transmitted to the appropriate Senate and
House of Representative Chairpersons. We appreciate the courtesies and cooperation extended to
Brown and Company and OIG staff during the audit. If you have any questions regarding the
report, please contact me at 202-208-5745.

Attachment
Enclosure

cc:    Assistant Secretary, Fish and Wildlife and Parks

                                                                                                  2
Audit Liaison Officer, Fish and Wildlife and Parks
Chief Financial Officer, Fish and Wildlife Service
Audit Liaison Officer, Fish and Wildlife Service
Director, Office of Financial Management
Division Chief, Internal Control and Audit Follow-up, Office of Financial
  Management




                                                                            3
                                                                      Attachment


              STATUS OF AUDIT REPORT RECOMMENDATIONS

Recommendation           Status                    Action Required

    1 and 2           Resolved; not   Recommendations will be referred to the
                      implemented     Assistant Secretary for Policy, Management
                                      and Budget for tracking of implementation.
                                                                                        Enclosure

  ~=::;~=== BROWN & COMPANY CPAs, PLLC===============.
                  CERI'IFIED PUBLIC ACCOUNTANTS AND MANAGEMENT CONSULTANTS




 Performance Audit of Expenditures and Obligations Used

by the Secretary of the Interior in the Administration of the

Wildlife and Sport Fish Restoration Programs Improvement

            Act of 2000, Public Law 106-408, for

                     Fiscal Years 2007-2008 and 2009-2010





Prepared for:
U.S. Department of the Interior, Office ofInspector General

As of Date: December 15,2010

Prepared by:
Brown & Company CPAs, PLLC
1101 Mercantile Lane, Suite 122
Largo, MD 20774


                 LARGO                                                    RICHMOND
 1101 MERCANTILE LANE, SUITE 122                              1504 SANTA ROSA ROAD, SUITE 107
            LARGO, MD 20774                                          RICHMOND, VA 23229
  (240)	 492-1400. FAX: (301) 773-2090                        (804) 288-2006. FAX: (804) 288-2233
          mail@brownco-cpas.com                                     tdavis@brownco-cpas.com
       Performance Audit of Expenditures and Obligations Used by the Secretary of
       the Interior in the Administration of the Wildlife and Sport Fish Restoration
                 Programs Improvement Act of 2000, Public Law 106-408,

                         for Fiscal Years 2007-2008 and 2009-2010


                                              Table of Contents

          EXECUTIVE SUMMARY
                                                          I

  2      BACKGROUND                                                                5


  3      OBJECTIVES, SCOPE, AND METHODOLOGY                                        8

         3.1 Objectives                                                            8

         3.2 Scope                                                                 8

         3.3 Methodology                                                           8

             3.3.1 Internal Control Over Payroll Expenditures                      9

             3.3.2 Payroll Compliance Controls                                    10

             3.3.3 Internal Control Over Non-Payroll Expenditures                 10

             3.3.4 Non-Payroll Compliance Controls                                II

             3.3.5 Undelivered Orders Compliance Controls                         12

             3.3.6 Internal Control Testing                                       12

             3.3.7 Compliance Testing                                             12

             3.3.8 Reporting Phase                                                13


  4·     RESULTS                                                                  13


  5       FINDINGS                                                               16

         5.1 Findings/Condition                                                  16

              5.1.1 Findings: FWS-Payroll-FYs 2007/2008                          16

              5.1.2 Findings: FWS-Non-Payroll-FYs 2007/2008                      17

              5.1.3 Findings: FWS-Undelivered Orders-FYs 2007/2008               19

              5.1.4 Findings: FWS-Payrol]-FYs 2009/20 I0                         19

              5.1.5 Findings: FWS-Non-Payroll-FYs 2009/20 I0                     20

              5.1.6 Findings: FWS-Undelivered Orders-FYs 2009/2010               22

         5.2 Criteria                                                            22

         5.3 Cause. '"                                                           23

         5.4 Effect                                                              23


  6      DEFICIENCIES IN INTERNAL CONTROL.                                       23


  7      CONCLUSIONS                                                             23


  8      RECOMMENDATIONS                                                         23

 9       MANAGEMENT RESPONSE TO REPORT                                           25




E========== BROWN & COMPANY CPAS, PLLC = = = = = = = . 

              ~===== BROWN & COMPANY CPAs, PLLC~===========.
                     CERTIFIED PUBLIC ACCOUNTANTS AND MANAGEMENT CONSULTANTS




  1    EXECUTIVE SUMMARY

  December 15,2010

 Mr. Ken Salazar, Secretary
 U.S. Department of the Interior

 1849 C Street, N.W.

 Washington, DC 20240


 Ms. Mary L. Kendall, Acting Inspector General
 Office of Inspector General
 U.S. Department of the Interior

 1849 C Street, N.W.

 Washington, DC 20240


 Dear Mr. Salazar and Ms. Kendall:

 This report presents the results of our work conducted to address the performance audit

 objectives relative to the expenditures and obligations used by the Secretary of the U.S.

 Department of the Interior ("Interior") in the administration of the Wildlife and Sport Fish

 Restoration Programs Improvement Act of 2000 ("the Act"), Public Law 106-408, for fiscal

 years 2007-2008 and 2009-2010. Our work was performed during the period of August 2, 2010

 through December 15, 2010, and our results are as of December 15, 20 IO.


 We conducted this performance audit in accordance with generally accepted government

 auditing standards. Those standards require that we plan and perform the audit to obtain

 sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions

 based on our audit objectives. We believe that the evidence obtained provides a reasonable basis

 for our findings and conclusions based on our audit objectives.


  The audit objectives of our work were to determine whether the expenditures and obligations

. used by the Secretary of the Interior, as reported by the U.S. Fish and Wildlife Service ("FWS"),

  in administration of the Act for fiscal years 2007-2008 and 2009-2010 were appropriate,

  adequately supported by appropriate documentation, and in accordance with the criteria set forth

  in the Act, and to report on the FWS's compliance with applicable laws and regulations and the

  internal control system for effectively accounting for expenditures and obligations under the Act.





                 LARGO                                                       RICHMOND
  1101 MERCANTILE LANE, SUITE 122                                1504 SANTA ROSA ROAD, SUITE 107
            LARGO, MD 20774                                             RICHMOND, VA 23229
   (240) 492-1400· FAX: (301) 773-2090                           (804) 288-2006. FAX: (804) 288-2233
          mail@brownco-cpas.com                                        tdavis@brownco-cpas.com
   As our report further describes, we identified the following as a result of the work performed:

   We identified a finding for each of the fiscal years 2007-2008 and 2009-20 10 that are a result of
   ineffective internal controls and certain unsupported costs. This finding is:

      1.	 Internal Controls Over the Expenditures and Obligations Incurred in the
          Administration of the Act are Not Operating Effectively and Certain Expenditures
          and Obligations Incurred in the Administration of the Act are Unsupported.

  FWS should ensure that existing internal controls are fully implemented and ensure their
  operating effectiveness as well as ensure that appropriate documentation is properly maintained
  to support the expenditures and obligations incurred in the administration of the Act.

  A summary of the internal control and compliance control exceptions identified in the sample
  items we tested is provided below:

                                           Non-Payroll Expenditures

                   Fiscal Year 2007-2008                                    Fiscal Year 2009-2010

                             Number of                                                Number of
                Number        Samples          Number of                 Number        Samples       Number of
                of Items        with            Control                  ofltems         with         Control
    Year        Sampled      Exceptions        Exceptions       Year     Sampled      Exceptions     Exceptions
    2007           45            4                31            2009        45            2              10
    2008           45            4                 19           2010        60            2              13
  Total            90            8                50            Total       105           4             23




                                             Payroll Expenditures

                  Fiscal Year 2007-2008	                                   Fiscal Year 2009-2010

                             Number of                                               Number of
                Number        Samples          Number of                 Number       Samples        Number of
                of Items        with            Control                  of Items       with          Control
    Year        Sampled      Exceptions        Exceptions       Year     Sampled     Exceptions      Exceptions
    2007           45            14               33            2009        45           15             27
    2008           45            18               33            2010        45           13             21
  Total            90            32               66            Total       90          28              48




  Each individual sample item is subject to more than one internal control, which has resulted in
  the number of exceptions being greater than the number of sample items in certain fiscal
  yearslbi-annual reporting periods.




E============= BROWN & COMPANY CPAS, PLLC =============
                                                       2
   A summary of exceptions of expenditures and obligations incurred in the administration of the
   Act is provided below:

                           Non-Payroll Expenditures Fiscal Year 2007-2008
                                                                               Absolute Dollar
                                      Dollar Amount of                       Amount of Exceptions
              Number of Items            Exceptions          Dollar Amount    as a Percentage of
      Year       Sampled              (Absolute Valute)        Sampled        Amounts Sampled
     2007          45                     $36,377             $4,920,493            0.7%
     2008          45                     $55,828             $2,352,983             2.4%
   Total           90                     $92,205             $7,273,476


                           Non-Payrol I Expenditures Fiscal Year 2009-2010
                                                                               Absolute Dollar
                                     Dollar Amount of                        Amount of Exceptions
             Number of Items            Exceptions           Dollar Amount    as a Percentage of
  Year          Sampled              (Absolute Valute)         Sampled        Amounts Sampled
    2009          45                      $4,690              $3,416,588             0.1%
    2010          60                      $4,942              $1,576,608             0.3%
  Total           105                     $9,632              $4,993,196



                               Payroll Expenditures Fiscal Year 2007-2008
                                                                               Absolute Dollar
                                     Dollar Amount of                        Amount of Exceptions
             Number of Items            exceptions          Dollar Amount     as a Percentage of
    Year        Sampled              (Absolute Valute)        Sampled         Amounts Sampled
    2007          45                    $1,045,821           $3,257,156             32.1%
    2008          45                    $1,276,974           $3,466,444             36.8%
  Total           90                   .$2,322,795           $6,723,600



                               Payroll Expenditures Fiscal Year 2009-2010
                                                                               Absolute Dollar
                                     Dollar Amount of                        Amount of Exceptions
             Number of Items            exceptions          Dollar Amount     as a Percentage of
    Year        Sampled              (Absolute Valute)        Sampled         Amounts Sampled
    2009          45                    $1,074,010           $3,652,715             29.4%
    2010          45                    $1,031,733           $3,812,695             27.1%
  Total           90                    $2,105,743           $7,465,410




E========= BROWN & COMPANY CPAS, PLLC
                                                3
                                                                       =======.
  FWS management involved in the administration of the Act did not implement internal controls
  effectively in fiscal years 2007-2008 and 2009-20 I O. Additionally, management did not
  implement policies and procedures to ensure that appropriate documentation was maintained to
  support the costs expended in accordance with the requirements of the Act for fiscal years 2007­
  2008 and 2009-2010. As a result, we were not able to determine that the expenditures and
  obligations incurred in administration of the Act were appropriate and allowable, and therefore,
  in compliance with the requirements of the Act in fiscal years 2007-2008 and 2009-2010.

  This performance audit did not constitute an audit of financial statements in accordance with
  Government Auditing Standards. Brown & Company was not engaged to, and did not, render an
  opinion on the Interior's or FWS's internal controls over financial reporting or over financial
  management systems (for purposes of OMB's Circular No. A-127 Financial Management
  Systems, July 23, 1993, as revised). Brown & Company cautions that projecting the results of
  our evaluation to future periods is subject to the risks that controls may become inadequate
  because of changes in conditions or because compliance with controls may deteriorate.


  La~yt~~
  December 15,2010




IE::~~~~~===BROWN & COMPANY CPAS, PLLC ===========~
                                                4
2   BACKGROUND

The Act was enacted to provide guidance on allowable expenditures in the administration of the
Federal Assistance Programs for State Wildlife and Sport Fish Restoration. The Act requires
that the administrative expenses be determined from a specific funding amount and incurred in
accordance with twelve specific cost categories as listed below.

U.S. Code Title 16: Chapter 5B: Section 669h, Requirements and restrictions concerning use of
amounts of expenses for administration, states:

“The Secretary of the Interior may use available amounts under section 699c(a)(1) of this title
only for expenses for administration that directly support the implementation of this chapter that
consist of:

    1. Personnel costs of employees who directly administer this chapter on a full-time basis;
    2. Personnel costs of employees who directly administer this chapter on a part-time basis for
        at least 20 hours each week, not to exceed the portion of those costs incurred with respect
        to the work hours of the employee during which the employee directly administers this
        chapter, as those hours are certified by the supervisor of the employee;
    3. Support costs directly associated with personnel costs authorized under paragraphs (1)
        and (2), excluding costs associated with staffing and operation of regional offices of the
        United States Fish and Wildlife Service and the Department of the Interior other than for
        the purposes of this chapter;
    4. Costs of determining under section 669e (a) of this title whether State comprehensive
        plans and projects are substantial in character and design;
    5. Overhead costs, including the costs of general administrative services, that are directly
        attributable to administration of this chapter and are based on—
             a. actual costs, as determined by direct cost allocation methodology approved by the
                 Director of the Office of Management and Budget for use by Federal agencies;
                 and
             b. in the case of costs that are not determinable under subparagraph (A), an amount
                 per full-time equivalent employee authorized under paragraphs (1) and (2) that
                 does not exceed the amount charged or assessed for costs per full-time equivalent
                 employee for any other division or program of the United States Fish and Wildlife
                 Service;
    6. Costs incurred in auditing, every 5 years, the wildlife and sport fish activities of each
        State fish and game department and the use of funds under section 669e of this title by
        each State fish and game department;
    7. Costs of audits under subsection (d) of this section;
    8. Costs of necessary training of Federal and State full-time personnel who administer this
        chapter to improve administration of this chapter;
    9. Costs of travel to States, territories, and Canada by personnel who—
              a. administer this chapter on a full-time basis for purposes directly related to
                  administration of State programs or projects; or
              b. administer grants under section 669e, 669h-1, or 669h-2 of this title;
    10. Costs of travel outside the United States (except to Canada), by personnel who administer
        this chapter on a full-time basis, for purposes that directly relate to administration of this
        chapter and that are approved directly by the Assistant Secretary for Fish and Wildlife
        and Parks;


                                                  5 
      11. Relocation expenses for personnel who, after relocation, will administer this chapter on a
          full-time basis for at least 1 year, as certified by the Director of the United States Fish and
          Wildlife Service at the time at which the relocation expenses are incurred; and
      12. Costs to audit, evaluate, approve, disapprove, and advise concerning grants under
          sections 669e, 669h-1, and 669h-2 of this title.”

The Act establishes specific spending levels for the administration of the Pittman-Robertson
Wildlife Restoration Act (“Wildlife Restoration”) and the Dingell-Johnson Sport Fish
Restoration Act (“Sport Fish Restoration”) (collectively “the program”). For the following fiscal
years, the funds for administration of each program were limited as follows:

                                                       Spending Levels
                           FY 2007                       $9,205,000
                           FY 2008                       $9,459,000
                           FY 2009                       $9,926,000
                           FY 2010                       $9,798,000

Following are the actual administrative costs reported by FWS in the Report to Congress for
fiscal years 2007-2008 and 2009-2010. The following information was compiled by FWS and
submitted to Congress:

                                                          Costs for Fiscal Year 2007
                                                           (in thousands of dollars)
                                                                  Unaudited

Costs Distributed by Improvement Act Category (Section 133(c)(1)
                                                                                                  Wildlife        Sport Fish
                                                                                                 Restoration      Restoration    Total
1.    Personnel working full time to administer the Act (salary plus benefits)                        $4,858           $5,291    $10,149
2.    Personnel working partl time to administer the Act (salary plus benefits)                            16               85      $101
3.    Support costs for personnel                                                                        671              658     $1,329
4.    Determining substantiality of character and design of State plans and projects                        0                0         $0
5a.   Overhead - Based on Actual Costs                                                                   515              524     $1,039
5b.   Overhead - Based on FTE                                                                            663              802     $1,465
6.    Audits of States                                                                                  1487             1073     $2,560
7.    Audits of administration expenditures                                                              100              100       $200
8.    Training of Federal and State Full-time personnel                                                    55               36       $91
9.    Travel to the States, territories, Canada                                                          384              309       $693
10.   Travel outside of the United States                                                                   0                0         $0
11.   Relocation of Personnel                                                                            331              259       $590
12.   Audit, evaluate, approve, etc., concerning grants under Section 6, 10, 11                             0                0         $0

      FY 2007 Costs to Administer the Progrms Under P.L. 106-408                                      $9,080           $9,137    $18,217

               Note: Categories 4 and 12 are not tracked separately. Costs for these administrative activities are included
               primarily in categories 1 and 9. (Amount allowed in the Act is $9,205K for each program.)




                                                                6 
                                                          Costs for Fiscal Year 2008
                                                           (in thousands of dollars)
                                                                  Unaudited

Costs Distributed by Improvement Act Category (Section 133(c)(1)
                                                                                                  Wildlife        Sport Fish
                                                                                                 Restoration      Restoration    Total
1.    Personnel working full time to administer the Act (salary plus benefits)                        $5,211           $5,826    $11,037
2.    Personnel working partl time to administer the Act (salary plus benefits)                            29               56       $85
3.    Support costs for personnel                                                                        909              849     $1,758
4.    Determining substantiality of character and design of State plans and projects                        0                0         $0
5a.   Overhead - Based on Actual Costs                                                                   541              542     $1,083
5b.   Overhead - Based on FTE                                                                            594              774     $1,368
6.    Audits of States                                                                                  1464              811     $2,275
7.    Audits of administration expenditures                                                              100              100       $200
8.    Training of Federal and State Full-time personnel                                                    51               42       $93
9.    Travel to the States, territories, Canada                                                          439              339       $778
10.   Travel outside of the United States                                                                   2                2         $4
11.   Relocation of Personnel                                                                            119              118       $237
12.   Audit, evaluate, approve, etc., concerning grants under Section 6, 10, 11                             0                0         $0

      FY 2008 Costs to Administer the Progrms Under P.L. 106-408                                      $9,459           $9,459    $18,918

               Note: Categories 4 and 12 are not tracked separately. Costs for these administrative activities are included
               primarily in categories 1 and 9.



                                                          Costs for Fiscal Year 2009
                                                           (in thousands of dollars)
                                                                  Unaudited

Costs Distributed by Improvement Act Category (Section 133(c)(1)
                                                                                                  Wildlife        Sport Fish
                                                                                                 Restoration      Restoration    Total
1.    Personnel working full time to administer the Act (salary plus benefits)                        $5,271           $5,912    $11,183
2.    Personnel working partl time to administer the Act (salary plus benefits)                            44             114       $158
3.    Support costs for personnel                                                                       1070              831     $1,901
4.    Determining substantiality of character and design of State plans and projects                        0                0         $0
5a.   Overhead - Based on Actual Costs                                                                   534              558     $1,092
5b.   Overhead - Based on FTE                                                                            644              871     $1,515
6.    Audits of States                                                                                  1684             1258     $2,942
7.    Audits of administration expenditures                                                                50               50      $100
8.    Training of Federal and State Full-time personnel                                                    46               41       $87
9.    Travel to the States, territories, Canada                                                          453              290       $743
10.   Travel outside of the United States                                                                   2                1         $3
11.   Relocation of Personnel                                                                            128                 0      $128
12.   Audit, evaluate, approve, etc., concerning grants under Section 6, 10, 11                             0                0         $0

      FY 2009 Costs to Administer the Progrms Under P.L. 106-408                                      $9,926           $9,926    $19,852

               Note: Categories 4 and 12 are not tracked separately. Costs for these administrative activities are included
               primarily in categories 1 and 9.




                                                                7 
                                                          Costs for Fiscal Year 2010
                                                           (in thousands of dollars)
                                                                  Unaudited

Costs Distributed by Improvement Act Category (Section 133(c)(1)
                                                                                                  Wildlife        Sport Fish
                                                                                                 Restoration      Restoration    Total
1.    Personnel working full time to administer the Act (salary plus benefits)                        $5,841           $5,931    $11,772
2.    Personnel working partl time to administer the Act (salary plus benefits)                            57               91      $148
3.    Support costs for personnel                                                                       1138              981     $2,119
4.    Determining substantiality of character and design of State plans and projects                        0                0         $0
5a.   Overhead - Based on Actual Costs                                                                   613              620     $1,233
5b.   Overhead - Based on FTE                                                                            604              808     $1,412
6.    Audits of States                                                                                   820              924     $1,744
7.    Audits of administration expenditures                                                              100              100       $200
8.    Training of Federal and State Full-time personnel                                                    61               57      $118
9.    Travel to the States, territories, Canada                                                          435              273       $708
10.   Travel outside of the United States                                                                   0                0         $0
11.   Relocation of Personnel                                                                            128                11      $139
12.   Audit, evaluate, approve, etc., concerning grants under Section 6, 10, 11                             0                0         $0

      FY 2010 Costs to Administer the Progrms Under P.L. 106-408                                      $9,797           $9,796    $19,593

               Note: Categories 4 and 12 are not tracked separately. Costs for these administrative activities are included
               primarily in categories 1 and 9.


3      OBJECTIVES, SCOPE, AND METHODOLOGY

3.1       Objectives

The objectives of the performance audit were to:

      •    Determine whether the expenditures and obligations used by the Secretary of the Interior,
           as reported by the FWS, in the administration of the Act for fiscal years 2007-2008 and
           2009-2010 were appropriate, adequately supported by appropriate documentation, and in
           accordance with the criteria set forth in the Act;

      •    Report on FWS’s compliance with applicable laws and regulations; and

      •    Report on FWS’s internal control system for effectively accounting for expenditures and
           obligations under the Act.

3.2       Scope

The scope of the performance audit included expenditures and obligations incurred by the
Secretary of the Interior in the administration of the Act for fiscal years 2007-2008 and 2009-
2010. The Secretary of the Interior has delegated the administration of the Act to FWS, and,
accordingly, FWS reports all related expenditures and obligation incurred.

3.3       Methodology

In planning the engagement, we performed inquiries of FWS personnel involved in the
administration of the Act, including personnel in Region 9 in order to understand the process for
administering the expenditures and obligations incurred under the Act, and to identify the


                                                                8 
relevant internal controls developed and operating at FWS during fiscal years 2007-2008 and
2009-2010.

For each FYs 2007-2008 and FYs 2009-2010, we performed the following procedures in order to
select a sample of items to subject to test work procedures. We obtained the electronic general
ledger transaction detail of expenditures and obligations ("transactional detail") reported by FWS
and reconciled it without material exception to the Report to Congress for the administration of
the Act to ensure the completeness of the population. We selected a sample of 45 payroll
transactions for each year 2007, 2008, 2009, and 2010, based on statistical and non-statistical
methods. We also selected a sample of 45 non-payroll transactions for each fiscal year 2007,
2008, 2009, and a sample of 60 non-payroll transactions for fiscal year 2010, based on statistical
and non-statistical methods. For each sample item selected, we determined whether the identified
relevant controls were operating effectively through a review of supporting documentation such
as Acquisition Requests, purchase orders, invoices, personnel records, timesheets and charge
card statements. In addition to evaluating the operating effectiveness of internal controls, we
utilize the supporting documentation to evaluate whether the selected expenditures and
obligations are adequately supported and in compliance with the Act. Since the samples were
selected statistically and non-statistically, the results cannot be projected to the population.

3.3.1   Internal Control Over Payroll Expenditures

The relevant controls we identified for testing included:

   Control #1: The amount of basic pay as shown on payroll list must match the amount in
   personnel file.

   Control #2: Form SF-2809 Health Benefit Election Form is in the personnel file for
   employees who elected coverage.

   Control #3: Time card is signed and approved by the approving official.

   Control #4: Employee’s gross pay is accurate.

   Control #5: The annual leave accrual is accurate and total annual leave hours carried over at
   calendar year-end did not exceeded 240, unless the employee is exempt.

   Control #6: The employee is paid overtime at the correct rate.

   Control #7: The employee retirement withholding for Civil Service Retirement System
   (CSRS) or Federal Employees Retirement System (FERS) is correct.

   Control #8: The entity’s contribution for CSRS and FERS are correct.

   Control #9: The amount of health insurance withheld (15% of total premium per FHFB
   policy) from employee agrees with the amount indicated on schedule of health insurance and
   is correct.

   Control #10: The employee’s cost of life insurance agrees with the actual amount withheld
   and is correct.


                                                 9 
3.3.2   Payroll Compliance Controls

The relevant controls that we identified for testing included:

   Control #C1 (a): Timesheet is reviewed and signed by the employee for each pay cycle.

   Control #C1 (b): Timesheet is validated by the timekeeper on each pay cycle.

   Control #C1 (c): Timesheet is reviewed and approved by the employee's supervisor for each
   pay cycle.

   Control #C1 (d): Timekeeper must be on the list of authorized timekeepers.

   Control #C1 (e): Timesheet is charged correctly to FWS Wildlife Restoration
   Administration and/or Sport Fish Restoration Administration for each pay cycle.

   Control #C1 (f): Timekeepers’ timesheets are reviewed and approved by their supervisor for
   each pay cycle.

   Control #C1 (g): Certifiers must be on the authorized official list.

   Control #C2: The U.S. OPM Standard Form 50 Notification of Personnel Action (SF-50)
   documentation is received for employee, and as such, documented evidence of authorization
   could be verified.

   Control #C3: The Human Resources ("HR") Manager reviews and signs the SF-50
   electronically in FPPS.

   Control #C4: The earning and leave statement is received and as such, documented evidence
   of earnings and leave could be verified.

   Control #C5: The position description is received and as such, documented evidence of
   qualifications could be verified.

3.3.3   Internal Control Over Non-Payroll Expenditures

The relevant controls that we identified for testing included:

   Control #1: The program approver reviews the Acquisition Request ("AR") for program
   need and electronically signs the AR if it has been entered into IDEAS, or signs the AR
   manually if it was created using Form 3-2109 and forwards it to the funds certifier.

   Control #2: Using the Purchase Order ("PO") number, the invoice is compared to the PO
   and receiving report to ensure that it is a valid invoice and the amount is within $100 of the
   PO. If the final amount is not within $100 of the original PO, it is returned to the Contracting
   Officer (CO) for further action.

   Control #3: Interest owed under the Prompt Payment Act is automatically calculated by
   FFS.


                                                 10 
   Control #4: The cardholder must sign and date their monthly statements verifying that the
   reconciliation has been performed and submit the statement to an approving official for
   review within ten (10) days of receipt.

   Control #5: The approving official reviews the cardholder statement for activity and the
   appropriateness of charges. If approved, it is signed and dated after review within ten (10)
   days of receipt.

   Control #6: Payment must be properly recorded.

   Control #7: The funds certifier reviews the Budget Tracking System and/or the Federal
   Financial System to confirm that funds are available for purchases. To document funds
   availability, the funds certifier signs the AR cither electronically or manually.

   Control #8: Obligating document must be properly kept.

   Control #9: A Contracting Officer ("CO") may only approve an AR up to their warrant
   authority limit.

   Control #10: Procurement documents must be signed by the contractor and contracting
   office.

   Control #11: Goods and services are certified as received.

   Control #12: GSA charges for space allocation is adequately supported journal entries and
   monthly bills.

   Control #13: Contracting office is on the authorization list.

3.3.4   Non-Payroll Compliance Controls

The relevant controls that we identified for testing included:

   Control #1a: Transaction is adequately supported by sufficient and appropriate
   documentation.

   Control #1b: Transaction is recorded at the correct amount.

   Control #1c: Transaction is recorded in the correct period.

   Control #1d: Transaction is recorded in the correct cost category as required by the Act and
   is a cost allowed under the Act.

   Control #1e: Cost charged is reasonable and appropriate under the Act.




                                                 11 
3.3.5   Undelivered Orders Compliance Controls

The relevant controls that we identified for testing included:

   Control #1: Aged Undelivered Orders Report (FWS 35203/35202) is reviewed and certified
   by the Regional Director or delegate.

   Control #2: Undelivered Orders balances are researched and marked valid or invalid.

3.3.6   Internal Control Testing

In order to test the operating effectiveness of relevant internal controls, we performed the
following procedures:

    1. In assessing the relevant internal controls related to payroll-related transactions selected,
       we obtained and reviewed:

           a. A copy of the employee's timesheet and verified that it was properly approved by
              the employee's supervisor.
           b. A copy of the SF-50 to assess whether it was properly approved by the HR
              Manager.

    2. In assessing the relevant internal controls related to non-payroll related transactions
       selected, we:

           a. Obtained and reviewed the AR form for completeness, and reviewed it for proper
              approval of the program approver and funds certifier.
           b. Obtained and reviewed the supporting documentation to assess whether the CO
              approved a purchase in excess of their warrant authority.
           c. Obtained and reviewed the supporting documentation to assess whether the PO,
              invoice, and receiving report agree within $100.
           d. For any transactions which did not agree, assessed whether supporting
              documentation existed to evidence that the difference was researched and
              resolved.

    3. In assessing the relevant internal controls related to charge card related transactions
       selected, we obtained and reviewed the cardholder statement to assess whether:

           a. All receipts are properly attached and that the cardholder signed the statement
              within 10 days of receipt.
           b. It was signed by the approving official to evidence their review within 10 days of
              the cardholder’s signature.

3.3.7   Compliance Testing

In order to assess the adequacy and appropriateness of supporting documentation and assess
compliance with the Act, we obtained supporting documentation for each transaction selected
and determined whether each transaction was:

           a. Adequately supported by sufficient and appropriate documentation;

                                                 12 
             b. Recorded at the correct amount;
             c. Recorded in the correct period;
             d. Recorded in the correct cost category as required by the Act and is a cost that is
                allowed under the Act; and
             e. Reasonable and appropriate under the Act.

3.3.8     Reporting Phase

During the reporting phase we:

             a. Identified any recommended actions that may be needed;
             b. Performed independent referencing between work papers and report;
             c. Determined whether the expenditures and obligations used by the Secretary of the
                Interior, as reported by the FWS, in the administration of the Act for fiscal years
                2007-2008 and 2009-2010 were appropriate, adequately supported by appropriate
                documentation, and in accordance with the criteria -set forth in the Act;
             d. Report on FWS's compliance with applicable laws and regulations; and
             e. Report on FWS's internal control system for effectively accounting for
                expenditures and obligations under the Act.


4   RESULTS

Internal Control Procedures Results Summary

The following is a summary of the internal control exceptions we identified as a result of our
procedures:

                                        Non-Payroll Expenditures FY 2007-2008
                  FY 2007                                    FY 2008                            Total
                                  Error Rate                          Error Rate                        Error Rate
             No. of Internal      (% of 45      No. of Internal       (% of 45     No. of Internal      (% of 90
Control      Control Exceptions   Samples)      Control Exceptions Samples)        Control Exceptions   Samples)
      1                3              7%                  1               2%                 4              4%
      2                2              4%                  1               2%                 3              3%
      3                3              7%                  1               2%                 4              4%
      4                0              0%                  0               0%                 0              0%
      5                0              0%                  0               0%                 0              0%
      6                3              7%                  2               4%                 5              6%
      7                2              4%                  1               2%                 3              3%
      8                2              4%                  1               2%                 3              3%
      9                2              4%                  1               2%                 3              3%
    10                 2              4%                  1               2%                 3              3%
    11                 2              4%                  1               2%                 3              3%
    12                 0              0%                  0               0%                 0              0%
    13                 0              0%                  1               2%                 1              1%
Total                 21                                 11                                 32




                                                         13 
                                      Non-Payroll Expenditures FY 2009-2010
                 FY 2009                                      FY 2010                             Total
                                 Error Rate                             Error Rate                        Error Rate
            No. of Internal      (% of 45       No. of Internal         (% of 60     No. of Internal      (% of 105
Control     Control Exceptions   Samples)       Control Exceptions      Samples)     Control Exceptions   Samples)
      1               2              4%                   2                 3%                 4              4%
      2               1              2%                   1                 2%                 2              2%
      3               0              0%                   1                 0%                 1              1%
      4               0              0%                   0                 0%                 0              0%
      5               0              0%                   0                 0%                 0              0%
      6               0              0%                   1                 0%                 1              1%
      7               2              4%                   2                 3%                 4              4%
      8               1              2%                   1                 2%                 2              2%
      9               1              2%                   0                 3%                 1              1%
    10                1              2%                   0                 2%                 1              1%
    11                1              2%                   0                 2%                 1              1%
    12                0              0%                   0                 0%                 0              0%
    13                1              2%                   0                 2%                 1              1%
Total                10                                   8                                   18



                                         Payroll Expenditures FY 2007-2008
                 FY 2007                                      FY 2008                             Total
                                 Error Rate                             Error Rate                        Error Rate
            No. of Internal      (% of 45       No. of Internal         (% of 45     No. of Internal      (% of 90
Control     Control Exceptions   Samples)       Control Exceptions      Samples)     Control Exceptions   Samples)
     1                1              2%                   2                 4%                 3              3%




                                         Payroll Expenditures FY 2009-2010
                 FY 2009                                      FY 2010                             Total
                                 Error Rate                             Error Rate                        Error Rate
            No. of Internal      (% of 45       No. of Internal         (% of 45     No. of Internal      (% of 90
Control     Control Exceptions   Samples)       Control Exceptions      Samples)     Control Exceptions   Samples)
     1                1              2%                   0                 0%                 1              1%

As each control may not pertain to a all transaction types (payroll, non-payroll, and charge card),
the error rate for each control was calculated considering only the transactions to which it
related, which is detailed in the finding below:

Compliance Controls Procedures Results Summary

The following is a summary of the compliance control procedures exceptions we identified as a
result of our testing:
                                      Non-Payroll Expenditures FY 2007-2008
                 FY 2007                                      FY 2008                             Total
                                 Error Rate                             Error Rate                        Error Rate
            No. of Compliance    (% of 45       No. of Compliance       (% of 45     No. of Compliance    (% of 90
Procedure   Exceptions           Samples)       Exceptions              Samples)     Exceptions           Samples)
    1a               2               4%                  3                  7%                5               6%
    1b               2               4%                  1                  2%                3               3%
    1c               2               4%                  1                  2%                3               3%
    1d               2               4%                  1                  2%                3               3%
    1e               2               4%                  1                  2%                3               3%
Total               10                                   7                                   17




                                                        14 
                                     Non-Payroll Expenditures FY 2009-2010
                 FY 2009                                    FY 2010                             Total
                                Error Rate                            Error Rate                        Error Rate
            No. of Compliance   (% of 45      No. of Compliance       (% of 60     No. of Compliance    (% of 105
Procedure   Exceptions          Samples)      Exceptions              Samples)     Exceptions           Samples)
    1a               0              0%                 1                  2%                1               1%
    1b               0              0%                 1                  2%                1               1%
    1c               0              0%                 1                  2%                1               1%
    1d               0              0%                 1                  2%                1               1%
    1e               0              0%                 1                  2%                1               1%
Total                0                                 5                                    5




                                       Payroll Expenditures FY 2007-2008
                 FY 2007                                    FY 2008                             Total
                                Error Rate                            Error Rate                        Error Rate
            No. of Compliance   (% of 45      No. of Compliance       (% of 45     No. of Compliance    (% of 90
Control     Exceptions          Samples)      Exceptions              Samples)     Exceptions           Samples)
  C1 (a)             3              7%                 0                  0%                3               3%
  C1 (b)             8             18%                 1                  2%                9              10%
  C1 (c)             3              7%                 0                  0%                3               3%
  C1 (d)             8             18%                 9                 20%               17              19%
  C1 (e)             0              0%                 0                  0%                0               0%
  C1 (f)             0              0%                 3                  7%                3               3%
  C1 (g)             4              9%                12                 27%               16              18%
 C2 (a)              3              7%                 6                 13%                9              10%
  C3 (a)             3              7%                 6                 13%                9              10%
Total               32                                37                                   69




                                       Payroll Expenditures FY 2009-2010
                 FY 2009                                    FY 2010                             Total
                                Error Rate                            Error Rate                        Error Rate
            No. of Compliance   (% of 45      No. of Compliance       (% of 45     No. of Compliance    (% of 90
Control     Exceptions          Samples)      Exceptions              Samples)     Exceptions           Samples)
  C1 (a)             0              0%                 0                  0%                0               0%
  C1 (b)             0              0%                 0                  0%                0               0%
  C1 (c)             0              0%                 0                  0%                0               0%
  C1 (d)            11             24%                10                 22%               21              23%
  C1 (e)             0              0%                 0                  0%                0               0%
  C1 (f)             2              4%                 2                  4%                4               4%
  C1 (g)             9             20%                 9                 20%               18              20%
  C2 (a)             4              9%                 0                  0%                4               4%
  C3 (a)             4              9%                 0                  0%                4               4%
Total               30                                21                                   51




                                                      15 
A summary of the absolute value of the total amount of unsupported costs identified, including
those, which we were unable to recalculate, is as follows:

                           FY 2007-2008                                                     FY 2009-2010

                         FY 2007       FY 2008        Total                               FY 2009      FY 2010          Total
Unsupported costs:                                                Unsupported costs
NonPayroll             $    36,377   $    55,828   $    92,205    NonPayroll            $     4,690   $     4,942   $       9,632
Payroll                $ 1,045,821   $ 1,276,974   $ 2,322,795    Payroll               $ 1,074,010   $ 1,031,733   $   2,105,743
Total                  $ 1,082,198   $ 1,332,802   $ 2,415,000    Total                 $ 1,078,700   $ 1,036,675   $   2,115,375

Total sampled costs:                                              Total sampled costs                               $          -
NonPayroll             $ 4,920,493   $ 2,352,983   $ 7,273,476    NonPayroll            $ 3,416,588   $ 1,576,608   $ 4,993,196
Payroll                $ 3,257,156   $ 3,466,444   $ 6,723,600    Payroll               $ 3,652,715   $ 3,812,695   $ 7,465,410
Total                  $ 8,177,648   $ 5,819,427   $ 13,997,075   Total                 $ 7,069,303   $ 5,389,303   $ 12,458,606



5     FINDINGS

5.1     Findings/Conditions

Internal Controls Over Expenditures and Obligations Incurred in the Administration of
the Act are Not Operating Effectively and Certain Expenditures and Obligations Incurred
in the Administration of the Act are Unsupported.

In performance of our test work over fiscal years 2007-2008 and 2009-2010, we noted that the
FWS did not maintain adequate supporting documentation to demonstrate that appropriate
internal control were operating effectively, and that certain costs were appropriately classified,
calculated, documented, and recorded.

5.1.1    Findings: FWS-Payroll-FYs 2007/2008
 
We noted the following control exceptions in our sample of 90 transactions (45 each period) for
FYs 2007 and 2008 expenditures and obligations incurred:

      Control #1: The amount of basic pay as shown on payroll list must match the amount in
      personnel file. Three of the 90 transactions are considered exceptions, as they did not have
      supporting documentation and/or SF 50, and employee’s earning could not be verified.

We noted the following the compliance exceptions in our sample of 90 transactions (45 each
period) for FYs 2007 and 2008 expenditures and obligation incurred:

      Control #C1 (a): Timesheet is reviewed and signed by the employee for each pay cycle.
      Three of the 90 transactions are considered exceptions, as they did not have supporting
      documentation and /or time and attendance, and as such, proper validation, verification and
      certification could not be verified.

      Control #C1 (b): Timesheet is validated by the timekeeper on each pay cycle. Nine of the 90
      transactions are considered exceptions, as they did not provide adequate supporting
      document, and as such, proper approval of the time and attendance sheets could not be
      verified.

                                                         16 
   Control #C1 (c): Timekeeper is reviewed and approved by the employee’s supervisor for
   each pay cycle. Three of the 90 transactions are considered exceptions, as they did not
   provide adequate supporting document, as such, proper validation by timekeeper could not be
   verified.

   Control #C1 (d): Timekeeper must be on the list of authorized timekeepers. Seventeen of
   the 90 transactions are considered exceptions, as they did not have adequate supporting
   documentation, and as such, timekeeper was not on the list or the authorized timekeepers.

   Control #C1 (f): Timekeepers’ timesheets are reviewed and approved by their supervisor for
   each pay cycle. Three of the 90 transactions are considered exceptions, as they did not have
   adequate supporting document; as such, personal time could not be verified by the
   timekeeper.

   Control #C1 (g): Certifiers must be on the authorized official list. Sixteen of the 90
   transactions are considered exceptions as they did not have adequate supporting
   documentation, and as such, certifier was not on the authorized list of valid certifier.

   Control #C2 (a): The U.S. OPM Standard Form 50 Notification of Personnel Action (SF-50)
   documentation is received for employee, and as such, documented evidence of authorization
   could be verified. Nine of the 90 transactions are considered exception as they did not have
   SF 50 available for testing.

   Control #C3 (a): The Human Resources (“HR”) Manager reviews and signs the SF-50
   electronically in FPPS. Nine of the 90 transactions are considered exception as they did not
   have SF 50 available for testing.
5.1.2   Findings: FWS-Non-Payroll-FYs 2007/2008

We noted the following exceptions in our sample of 90 transactions (45 each period) for FYs
2007 and 2008 expenditures and obligations incurred:

   Control #1: The program approver reviews the Acquisition Request ("AR") for program
   need and electronically signs the AR if it has been entered into IDEAS, or signs the AR
   manually if it was created using Form 3-2109 and forwards it to the funds certifier. Four of
   the 90 transactions are considered exceptions as follows:

        •   Three transactions did not have supporting documentation.
        •   One transaction did not have the signature of the requestor or program official on the
            acquisition request.

   Control #2: Using the purchase order ("PO") number, the invoice is compared to the PO and
   receiving report to ensure that it is a valid invoice and the amount is within $100 of the PO. If
   the final amount is not within $100 of the original PO, it is returned to the CO for further
   action. Three of the 90 transactions are considered exceptions, as they did not have
   supporting documentation and /or did not agree with documentation provided.




                                                17 
   Control #3: Interest owed under the Prompt Payment Act is automatically calculated by
   FFS. Four of the 90 transactions are considered exceptions as follow:

       •   Four transactions did not have supporting documentation to determine the payment
           date, and as such, we could not determine compliance with the Prompt Payment Act.

   Control #6: Payment must be properly recorded. Five of the 90 transactions are considered
   exceptions as follow:

       •   Three transactions did not have supporting documentation.
       •   One transaction did not have adequate supporting documentation, and the preparer
           and approver signatures on the redistribution data sheet were signed by the same
           person.
       •   One transaction did not have adequate supporting documentation, and Acquisition
           Request, invoice and receipt of service could not be verified.

   Control #7: The funds certifier reviews the Budget Tracking System and/or the Federal
   Financial System to confirm that funds are available for purchases. To document funds
   availability, the funds certifier signs the AR cither electronically or manually. Three of the 90
   transactions are considered exceptions, as they did not have supporting documentation.

   Control #8: Obligating documents must be properly kept. Three of the 90 transactions are
   considered exceptions, as they did not have supporting documentation.

   Control #9: A Contracting Officer ("CO") may only approve an AR up to their warrant
   authority limit. Three of the 90 transactions are considered exceptions, as they did not have
   supporting documentation.

   Control #10: Procurement documents must be signed by the contractor and contracting
   office. Three of the 90 transactions are considered exceptions, as they did not have
   supporting documentation.

   Control #11: Goods and services are certified as received. Three of the 90 transactions are
   considered exceptions, as they did not have supporting documentation.

   Control #13: Contracting office is on the authorization list. One of the 90 transactions is
   considered an exception, as it did not have supporting documentation.

We noted the following compliance exceptions in our sample of 90 transactions (45 each period)
for FYs 2007 and 2008 expenditures and obligation incurred:

   Control #1a: Transaction is adequately supported by sufficient and appropriate
   documentation. Five of the 90 transactions are considered exceptions, as they did not have
   supporting documentation.

   Control #1b: Transaction is recorded in the correct amount. Three of the 90 transactions are
   considered exceptions, as they did not have supporting documentation.




                                                18 
   Control #1c: Transaction is recorded in the correct period. Three of the 90 transactions are
   considered exceptions, as they did not have supporting documentation.

   Control #1d: Transaction is recorded in the correct cost category as required by the act and
   is a cost allowed under the act. Three of the 90 transactions are considered exceptions, as
   they did not have supporting documentation.

   Control #1e: Cost charged is reasonable and appropriate under the act. Three of the 90
   transactions are considered exceptions, as they did not have supporting documentation.

5.1.3   Findings: FWS-Undelivered Orders-FYs 2007/2008

We selected the fourth quarter Aged Undelivered Order (UDO) Report (FWS 35203/35202) for
the fiscal years 2007 and 2008 for each of the nine regions, totaling 18 reports. We noted the
following compliance exceptions in our sample of 18 Aged UDO reports and supporting
schedules:

   Control #1: Aged Undelivered Orders Report (FWS 35203/35202) is reviewed and certified
   by the Regional Director or delegate. Six of the 18 Aged UDO reports were missing a
   certification statement by the Regional Director or delegate.

   Control # 2: Undelivered Orders balances are researched and marked as valid or invalid. Six
   of the 18 supporting schedules of UDO balances were missing and/or did not provide
   evidence of review and validation by the Director or delegate.

Office of Management and Budget (OMB) Circular A-123, Management’s responsibility for
Internal Control, Section I. Introduction, A. Agency implementation states:

“Management should have a clear, organized strategy with well-defined documentation
processes that contain an audit trail, verifiable results, and specify documentation retention
periods so that someone not connected with the procedures can understand the process.”

5.1.4   Findings: FWS-Payroll-FYs 2009/2010

We noted the following exceptions in our sample of 90 transactions (45 each period) for FYs
2009 and 2010 expenditures and obligations incurred:

   Control #1: The amount of basic pay as shown on payroll list must match the amount in
   personnel file. One of the 90 transactions is considered an exception, as it did not have
   supporting documentation and SF 50, and as such, employee’s earning could not be verified.

We noted the following the compliance exceptions in our sample of 90 transactions (45 each
period) for FYs 2009 and 2010 expenditures and obligation incurred:

   Control #C1 (d): Timekeeper was on the list of authorized timekeepers. Twenty- one of the
   90 transactions are considered exceptions, as they did not have adequate supporting
   documentation; as such, timekeeper was not on the list or the authorized timekeepers.




                                              19 
   Control #C1 (f): Timekeepers’ timesheets are reviewed and approved by their supervisor for
   each pay cycle. Four of the 90 transactions are considered exceptions, as they did not have
   adequate supporting document, and as such, personal time could not be verified by the
   timekeeper.

   Control #C1 (g): Certifiers are on the authorized official list. Eighteen of the 90 transactions
   are considered exceptions, as they did not have adequate supporting documentation, and as
   such, certifier was not on the authorized list of valid certifier.

   Control #C2 (a): The U.S. OPM Standard Form 50 Notification of Personnel Action (SF-50)
   documentation is received from employees, and as such, documented evidence of
   authorization could be verified. Four of the 90 transactions are considered exception as they
   did not have SF 50 available for testing.

   Control #C3 (a): Human Resources (HR) Manager reviewed and signed the SF-50
   electronically in FPPS. Four of the 90 transactions are considered exception as they did not
   have SF 50 available for testing.

5.1.5   Findings: FWS-Non-Payroll-FYs 2009/2010

We noted the following exceptions in our sample of 45 transactions for FY 2009 and 60
transactions (total 105 samples) FY 2010 expenditures and obligations incurred:

   Control #1: The program approver reviews the Acquisition Request ("AR") for program
   need and electronically signs the AR if it has been entered into IDEAS, or signs the AR
   manually if it was created using Form 3-2109 and forwards it to the funds certifier. Four of
   the 105 transactions for FYs 2009 and FY 2010 are considered exceptions as follows:

        •   Three transactions did not have supporting documentation.
        •   One transaction did not have the signature of the requestor or program official on the
            acquisition request.

   Control #2: Using the purchase order ("PO") number, the invoice is compared to the PO and
   receiving report to ensure that it is a valid invoice and the amount is within $100 of the PO. If
   the final amount is not within $100 of the original PO, it is returned to the CO for further
   action. Two of the 105 transactions for FYs 2009 and 2010 are considered exceptions, as
   they did not have supporting documentation.

   Control #3: Interest owed under the Prompt Payment Act is automatically calculated by
   FFS. One of the 105 transactions for FYs 2009 and 2010 is considered an exception, as it did
   not have adequate supporting documentation.

   Control #6: Payment must be properly recorded. One of the 105 transactions for FYs 2009
   and 2010 is considered an exception, as it did not have adequate supporting documentation,
   and Acquisition Request, invoice and receipt of service could not be verified.

   Control #7: The funds certifier reviews the Budget Tracking System and/or the Federal
   Financial System to confirm that funds are available for purchases. To document funds
   availability, the funds certifier signs the AR cither electronically or manually. Four of the


                                                20 
   105 transactions for FYs 2009 and 2010 are considered exceptions, as they did not have
   adequate supporting documentation.

   Control #8: Obligating document must be properly kept. Two of the 105 transactions for
   FYs 2009 and 2010 are considered exceptions as they did not have adequate supporting
   documentation.

   Control #9: A Contracting Officer ("CO") may only approve an AR up to their warrant
   authority limit. One of the 105 transactions for FYs 2009 and 2010 is considered an
   exception as it did not have adequate supporting documentation, data input sheets were not
   signed, and Acquisition Request and payment history details were not provided.

   Control #10: Procurement documents must be signed by the contractor and contracting
   office. One of the 105 transactions for FYs 2009 and 2010 is considered an exception, as it
   did not have supporting documentation, and obligating documents or payment history were
   not provided.

   Control #11: Goods and services are certified as received. One of the 105 transactions for
   FYs 2009 and 2010 is considered an exception, as it did not have adequate supporting
   documentation, data input sheets were not signed, and Acquisition Request and payment
   history details were not provided .

   Control #13: Contracting Officer is on the authorization list. One of the 105 transactions for
   FYs 2009 and 2010 is considered an exception, as it did not have supporting documentation,
   and obligating or payment history details were not provided.

We noted the following compliance exceptions in our sample of 45 transactions for FY 2009 and
60 transactions for FY 2010 (total 105 samples) expenditures and obligation incurred:

   Control #1a: Transaction is adequately supported by sufficient and appropriate
   documentation. One of the 105 transactions for FYs 2009 and 2010 is considered an
   exception, as it did not have adequate supporting documentation, and Acquisition Request
   and payment history details were not provided.

   Control #1b: Transaction is recorded at the correct amount. One of the 105 transactions for
   FYs 2009 and 2010 is considered an exception, as it did not have adequate supporting
   documentation, and Acquisition Request and payment history details were not provided.

   Control #1c: Transaction is recorded in the correct period. One of the 105 transactions for
   FY 2009 is considered an exception, as it did not have adequate supporting documentation,
   and Acquisition Request and payment history details were not provided.

   Control #1d: Transaction is recorded in the correct cost category as required by the act and
   is a cost allowed under the Act. One of the 105 transactions for FYs 2009 and 2010 is
   considered an exception, as it did not have adequate supporting documentation, and
   Acquisition Request and payment history details were not provided.

   Control #1e: Cost charged is reasonable and appropriate under the Act. One of the 105
   transactions for FYs 2009 and 2010 is considered an exception, as it did not have adequate


                                              21 
      supporting documentation, and Acquisition Request and payment history details were not
      provided.

5.1.6    Findings: FWS-Undelivered Orders-FYs 2009/2010

We selected the fourth quarter Aged Undelivered Order (UDO) Report (FWS 35203/35202) for
the fiscal years 2009 and 2010 for each of the nine regions, totaling 18 reports. We noted the
following compliance exceptions in our sample of 18 Aged UDO reports and supporting
schedules:

      Control #1: Aged Undelivered Orders Report (FWS 35203/35202) is reviewed and certified
      by the Regional Director or delegate. Four of the 18 Aged UDO reports were missing a
      certification statement by the Regional Director or delegate.

      Control #2: Undelivered Orders balances are researched and marked valid or invalid. Four
      of the 18 supporting schedules of UDO balances were missing and/or did not provide
      evidence of review and validation by the Director or delegate.

5.2     Criteria

U.S. Code Title 16: Chapter 5B: Section 669h, Requirements and restrictions concerning use of
amounts of expenses for administration, states: “The Secretary of the Interior may use available
amounts under section 699c(a)(1) of this title only for expenses for administration that directly
support the implementation of this chapter that consist of:

      1. Personnel costs of employees who directly administer this chapter on a full-time basis;
      2. Personnel costs of employees who directly administer this chapter on a part-time basis for
         at least 20 hours each week, not to exceed the portion of those costs incurred with respect
         to the work hours of the employee during which the employee directly administers this
         chapter, as those hours are certified by the supervisor of the employee;
      3. Support costs directly associated with personnel costs authorized under paragraphs (1)
         and (2), excluding costs associated with staffing and operation of regional offices of the
         United States Fish and Wildlife Service and the Department of the Interior other than for
         the purposes of this chapter;
      4. Costs of determining under section 669e (a) of this title whether State comprehensive
         plans and projects are substantial in character and design;
      5. Overhead costs, including the costs of general administrative services, that are directly
         attributable to administration of this chapter and are based on—
              c. actual costs, as determined by direct cost allocation methodology approved by the
                  Director of the Office of Management and Budget for use by Federal agencies;
                  and
              d. in the case of costs that are not determinable under subparagraph (A), an amount
                  per full-time equivalent employee authorized under paragraphs (1) and (2) that
                  does not exceed the amount charged or assessed for costs per full-time equivalent
                  employee for any other division or program of the United States Fish and Wildlife
                  Service;
      6. Costs incurred in auditing, every 5 years, the wildlife and sport fish activities of each
         State fish and game department and the use of funds under section 669e of this title by
         each State fish and game department;
      7. Costs of audits under subsection (d) of this section;

                                                 22 
      8. Costs of necessary training of Federal and State full-time personnel who administer this
          chapter to improve administration of this chapter;
      9. Costs of travel to States, territories, and Canada by personnel who—
               c. administer this chapter on a full-time basis for purposes directly related to
                   administration of State programs or projects; or
               d. administer grants under section 669e, 669h-1, or 669h-2 of this title;
      10. Costs of travel outside the United States (except to Canada), by personnel who administer
          this chapter on a full-time basis, for purposes that directly relate to administration of this
          chapter and that are approved directly by the Assistant Secretary for Fish and Wildlife
          and Parks;
      11. Relocation expenses for personnel who, after relocation, will administer this chapter on a
          full-time basis for at least 1 year, as certified by the Director of the United States Fish and
          Wildlife FWS at the time at which the relocation expenses are incurred; and
      12. Costs to audit, evaluate, approve, disapprove, and advise concerning grants under
          sections 669e, 669h-1, and 669h-2 of this title.”

5.3     Cause

FWS internal controls were not properly implemented to evidence that documentation was
retained to support expenditures and obligations incurred in the administration of the Act.

5.4     Effect

Administrations expenditures and obligation incurred in the administration of the Act in fiscal
years 2007-2008 and 2009-2010 may not be appropriate or allowed.


6     DEFICIENCIES IN INTERNAL CONTROL

As noted above, we identified deficiencies in internal controls over the expenditures and
obligations incurred in the administration of the Act in fiscal years 2007-2008 and 2009-2010.


7     CONCLUSIONS

FWS management involved in the administration of the Act did not implement internal controls
effectively in fiscal years 2007-2008 and 2009-2010. Additionally, management did not
implement policies and procedures to ensure that appropriate documentation was maintained to
support the costs expended in accordance with the requirements of the Act for fiscal years 2007-
2008 and 2009-2010. As a result we were not able to determine that the expenditures and
obligations incurred in administration of the Act were appropriate and allowable, and therefore,
in compliance with the requirements of the Act in fiscal years 2007-2008 and 2009-2010.


8     RECOMMENDATIONS

FWS should:

      1. Implement appropriate internal controls to ensure that the expenditures and obligations
         incurred in the administration of the Act are properly reviewed and approved.

                                                    23 
2. Develop and implement policies and procedure to ensure that appropriate documentation
   is properly maintained to support that expenditures and obligations were transacted in
   accordance with the requirements of the Act.




                                         24 
9   MANAGEMENT’s RESPONSE TO REPORT




                              25 
                                                                                             us.
                                                                                     FISH ... WILIlUPIl
                                                                                           8EJIV1




                                                                                     ~
              United States Department of the Interior
                            FISH AND WILDLIFE SERVICE
                                   Washington, D.C. 20240
In Reply Refer To:
FWS/AWSRlAIM:047237


Robert Romanyshyn
Assistant Inspector General for Audits
U.S. Department of the Interior
Office of Inspector General
1849 C Street NW, MS 4428
Washington, DC 20240

Gail H. Jenifer, Partner
clo Brown & Company, CPAs, PLLC
I 101 Mercantile Lane
Suite 122
Largo, MD 20774

Dear Mr. Romanyshyn and Ms. Jenifer:

 Thank you for the opportunity to comment on the U.S. Fish and Wildlife Service's
 (Service) Wildlife and Sport Fish Restoration Program (WSFR) FY 2007,2008,2009 and
 2010 audits of administrative funds. Enclosed please find the response to the Draft
Independent Auditors' Report on the Expenditures and Obligations Used by the Secretary
ofthe Interior in the Administration ofthe Wildlife and Sport Fish Restoration Programs
for Fiscal Years 2007 and 2008 and Fiscal Years 2009 and 2010. We have included the
Corrective Action Plan in our response.

Upon reviewing the draft audit report, the Service believes that existing Department of
the Interior (DOl) and Service policies, procedures and controls are adequate and
appropriate to reasonably ensure compliance with the Wildlife and Sport Fish Restoration
Acts (Acts). The Service notes that the audit did not have any findings of noncompliance
with these Acts. The Service agrees that findings in the report may indicate areas of
improvement related to financial internal controls. However, as the FY 2007 and 2008
audits were not performed in a timely manner, their relevance to current operations is
significantly reduced. The older the transactions, the more difficult it was to obtain
requested documentation from the Service's support offices that are responsible for each
document.




                                  E PRIDEslE::..:
                                   MERICA~~
Many of the findings indicated in the draft report are related to the Service's support
programs and none of them are in violation of the Wildlife and Sport Fish Restoration
Improvement Acts. WSFR is dependent on these support programs and agencies such as
Human Capital, Contracting and Facilities Management, the National Business Center,
and Division of Financial Management to perform various centralized duties. WSFR
relies on these specialized agencies/programs to perform HC, contracting, space and
related duties and relies on them to maintain documentation in accordance with DOl and
Service policies, and procedures.

If you have any questions or concerns, please contact Hannibal Bolton, the Assistant
Director for WSFR Program by calling (202) 208-1050.

                                                    Sincerely,




Enclosures
                                                                            Attachment I



                            Corrective Action Plan

   2007-2010 Wildlife and Sport Fish Restoration Administrative Funds Audits



Audit Recommendations:

   1)	 Implement appropriate internal controls to ensure that the expenditures and
       obligations incurred in the administration of the Act are properly reviewed and
       approved.

      Action: The Wildlife and Sport Fish Restoration Program (WSFR) will reiterate
      current policies and procedures regarding supervisory review and approval of
      timesheets, charge cards, and acquisition requests. Although WSFR has been
      emphasizing the necessi ty of having the internal controls in place and operating,
      WSFR will continue its diligence at a national level at the WSFR Regional
      Chiefs meeting in November 20 II. Regional Chiefs will discuss the current
      requirements in place for supervisory review of financial documents and
      emphasize that we must follow the guidelines already established by the Program.
      Evidence of this will be documented in both the Chiefs Meeting agenda, as well
      as the notes from the meeting. Discussions will be also held at the Fiscal
      Conference in May, 20 II, as well. Evidence of the discussion will be in the form
      of meeting minutes and agendas.

      Responsible Official(s): Steve Barton, Chief, Division of Administration and
      Information Management; Stephen Lee, Chief, Branch of Budget and
      Administration

      Target Closeout: November 15,2011

   2)	 Develop and implement policies and procedures to ensure that appropriate
       documentation is properly maintained to support that expenditures and obligations
       were transacted in accordance with the requirements of the Act.

      Action: Implement an annual certification by Regional WSFR divisions to submit
      to the Assistant Director -WSFR, indicating all employees have completed
      document retention training.

      Responsible Official: Fred Caslick, Region I; Stephen Robertson, Region 2; Jim
      Hodgson, Region 3; Mike Piccirilli, Region 4; John Organ, Region 5; David
      McGillivary, Region 6; Steve Klein, Region 7; Sue Detweiler, Region 8; Steve
      Barton, Region 9.

      Target Closeout: September 30, 2011



                                  •
                                                                     Attachment I


Action: The Wildlife and Sport Fish Restoration Program (WSFR) has and will
reiterate current policies and procedures regarding document retention. This will
occur on a national level at the WSFR Regional Chiefs meeting in
November 20 Ii. Regional Chiefs will discuss the current requirements in place
for retention of financial documents and emphasize that we must follow the
guidelines already established by the Program. Evidence of this will be
documented in both the Chiefs Meeting agenda, as well as the notes from the
meeting. Evidence will be documented in the meeting agenda. Discussions will
be also held at the Fiscal Conference in May, 20 II, as well. Evidence of the
discussion will be in the form of meeting minutes and agendas. In addition, the
Service will migrate to FBMS in November of 20 12. The functionality of the
new program will allow all documents related to a transaction to be linked and
will provide for easy access to the documents in the future.

Responsible Official(s): Steve Barton, Chief, Division of Administration and
Information Management; Stephen Lee, Chief, Branch of Budget and
Administration

Target Closeout: November 15,20 II

Action: Review the findings of the 2007-2010 audits and of applicable
documentation policies, processes and support services in Washington and
Regional Servicing HC Offices relating to records retention and data availability
as it relates to program charges for background checks.

Responsible Official: Peggy Phelps, Chief, Division of Human Capital

Target Closeout: May 15, 2011
                       United States Fish and Wildlife Service
                               Management Response To
 Performance Audit ofExpenditures and Obligation Used by the Secretary ofthe Interior
 in the Administration ofthe Wildlife and Sport Fish Restoration Programs Improvement
       Act 0(2000. Public Law 106-408, for Fiscal Years 2007-2008 and 2009-2010

Summary:

The Fish and Wildlife Service (Service) partially concurs with the audit findings, as they
relate to financial internal controls. The Service believes none of the findings indicate a
use of funds outside of the twelve required categories. The Wildlife and Sport Fish
Restoration Program (WS FR) is committed to take all necessary actions to assure the
integrity of the Wildlife and Sport Fish Restoration Acts, and has, since its
reorganization, taken action to enhance its internal controls.

The primary focus of the audit testing was on the financial internal controls, which is
duplicative of the annual financial statement audit of the Department of Interior. While
an understanding of Service policies and procedures are necessary for auditors to perfonn
their work, the testing should be related to the compliance of the expenditure of being
within the 12 categories.

For some functions, WSFR is dependent on servicing programs and agencies such as
Human Capital (HC), Contract and Facilities Management (CFM), Division of Finance
(DFM), the National Business Center (NBC), and the Office of Personnel Management
(OPM) for which WSFR has little control. WSFR relies on these specialized support
services and offices to perfonn their related duties and to properly maintain
documentation in accordance with relevant acts and rules. For the period under audit,
much of the infonnation was archived off site and some, as with the case of retired
employees, with agencies outside Department of the Interior (001).

WSFR believes that existing 001 and Service policies; procedures and controls are
adequate and appropriate to reasonably ensure compliance with the Acts. WSFR adheres
to the Service's document retention policy (6 years and 3 months in most cases) and,
therefore, does not keep all documentation for all transactions indefinitely. Due to
physical storage requirements, off-site storage is often utilized and made older documents
less accessible. A timelier audit should alleviate any issues with providing
documentation.

In the future, the Service requests that WSFR program management be allowed to
provide input and comment on the necessary statement of work before a contract is let by
the Inspector General's office. This will assist in ensuring adequate compliance testing.

Control Finding:

The Service partially agrees with the Control finding.

Payroll Controls: The Service does not concur with the finding that timesheets were not
approved. For FY2007, the Service used FPPS to record and approves time sheets.
FPPS required supervisor electronic certification within the process which is considered


                                        Page I of5
                       United States Fish and Wildlife Service

                               Management Response To

 Performance Audit ofExpenditures and Obligation Used by the Secretary ofthe Interior
 in the Administration ofthe Wildlife and Sport Fish Restoration Programs Improvement
       Act 0[2000, Public Law 106-408, for Fiscal Years 2007-2008 and 2009-2010


the official supervisor approval and constitutes official documentation of that action. For
FY2008, FY2009, and FY20 I0, The Service used QuickTime to record and approves
timesheets. Department of Interior policy requires all employees be validated by a
timekeeper and certified by an authorized approving official before any payroll payments
are made. In addition, the auditors selected payroll samples that were outside the WSFR
program. While these individuals did charge time to the administrative funds, they are
support staff employed by other programs within the Service. As such, those employees
were outside the WSFR authorization chain as it relates to validation and certification.
The end result was that it created some time delays and the misidentification of certain
sample items as deficiencies.

WSFR is required to rely on HC for payroll records. WSFR has provided the auditors
with a full listing of all supervisor approvers and timekeepers, as well as their backups for
all Service employees. The auditors did not provide WSFR or HC a full listing of
missing documents until late in the audit prqcess. As such, HC was pulling the "missing"
documents as the draft report was being written. WSFR provided the auditors with a total
of 62 additional SF-50's. During the exit conference, the auditors informed WSFR staff
that these additional items would be factored into the final report. Also during the
conference, the auditors indicated they would indicate receipt of these items in the draft
report. There was no mention of the items in the report received by the Service.
In addition, the dollar amount of the exceptions is not 88% for 2007/2008 or 67.6% for
2009/2010 of the total amount sampled, but 43.8% ($2,908,948/6,636,182) for 2007/2008
and 33.8% for 2009/20lO.These numbers will be adjusted downward significantly once
the additional information is included in the final report.

WSFR does agree that timekeepers should not validate their own time, and those
employed by the WSFR program will be addressed in the corrective action plan.

Non-Payroll controls: WSFR partially concurs with the finding. We realize that several
supporting documents were irretrievable due the fact that the audit fiscal years are so old.
But WSFR asserts that at least $17,327 of the $36,377 in 2007 and $9,160 of the $55,828
in FY 2008 of non-payroll exceptions were related to GSA space costs. The GSA bills
are maintained by regional finance and contracting offices, however, the bills for those
exact amounts had been archived. In addition for 2007, $16,800 of the $36,377 related to
a cross-program charge and a data sheet showing the entry and the cause of the charge
was provided, but did not have a signature other than the budget officer. WSFR agrees
that an approver's signature should have been on the data sheet.

For 2008, $41,973.99 of the $55,828 related to a deobligation. A final invoice marked as
"final payment" and signed by the receiving officer was provided, as well as e-mails from
the administrative officer requesting the deobligation was provided. WSFR followed the



                                        Page 2 of5
                       United States Fish and Wildlife Service
                               Management Response To
 Performance Audit ofExpenditures and Obligation Used by the Secretary ofthe Interior
 in the Administration ofthe Wildlife and Sport Fish Restoration Programs Improvement
       Act 0[2000, Public Law 106-408, [or Fiscal Years 2007-2008 and 2009-2010

Service's procedures for requesting deobligation. The Service believes that this finding
is inappropriate, as Service policy was followed.

For 2009, $2,375 related to a redistribution of costs for regional shared costs and
$2,315.40 related to a Xerox maintenance contract. Invoices and data distribution sheets
were provided, however acquisition requests were not provided, and the data
redistribution sheet was only signed by one person. The Service provided documentation
for the actual transaction selected (i.e. obligation or payment).

For 20 I0, $1,845.84 relates to a cell phone bill for a regional office. That region's policy
does not require an acquisition request to be completed for recurring bills. Th~ remaining
$3,096 relates to a background check perfonned by OPM. HC redistributes the charges
to the affected programs and WSFR is not provided any bill or other support from He. In
addition, as DOl holds the contract with OPM to perfonn the background checks, the
Department receives the bills, and does not submit them to the FWS HC offices.

In summary, the Service has $19,050 in control findings in 2007, $4,694 in control
findings for 2008, $2,375 in control findings for 2009 and $0 in control findings for 2010.
None of these findings indicate an obligation of funds for any item outside the twelve
categories allowable in the Acts.

WSFR will discuss and reiterate the records retention policy at the WSFR Chiefs'
meeting in November and the WSFR Fiscal meeting in May 20 II to ensure that all
regional WSFR and support servicing offices are aware of and are following Service
policies on records retention.

Undelivered Orders Control Finding: This finding corresponds to a similar finding the
Service's financial statement audit. As such, corrective actions will be put in place by the
Division of Financial Management. It does not indicate a misuse of funds from the Acts.

Compliance Finding:

The Service asserts that the audit report should not state that any of the exceptions were
for expenditures outside of the 12 categories of allowable expenditures listed in u.s.
Code Title 16: Chapter 58: Section 669h. All expenditures were within the twelve
categories allowable and the items identified are simply control deficiencies.

WSFR agrees that several supporting documents were irretrievable due the fact that some
of audit fiscal years are so old. In addition WSFR must rely on HC and OPM for
documentation for payroll records.




                                        Page 3 of5
                      United States Fish and Wildlife Service
                              Management Response To
Performance Audit ofExpenditures and Obligation Used by the Secretary ofthe Interior
in the Administration ofthe Wildhfe and Sport Fish Restoration Programs Improvement
      Act 0[2000. Public Law 106-408. (or Fiscal Years 2007-2008 and 2009-2010

Recognizing that improvements were needed, WFSR has reviewed and re-emphasized
internal controls since its reorganization in 2007. WSFR believes that any issues
regarding non-payroll items within the program have been addressed in the attached CAP
and will be borne out in audits of subsequent years. WSFR will discuss and reiterate the
records retention policy at the WSFR Chiefs' meeting in November 2011 to ensure that
all regional WSFR offices are aware of and are following our records retention policy for
all records that WSFR controls. We have an action item for HC or OPM policies to be
reviewed by all WSFR and related servicing offices in the attached CAP.


AUDITOR RECOMMENDATIONS

FWS should:

   1.	 Implement appropriate internal controls to ensure that the expenditures and
       obligations incurred in the administration of the Act are properly reviewed and
       approved.

   2.	 Develop and implement policies and procedures to ensure that appropriate
       documentation is properly maintained to support that expenditures and obligations
       were transacted in accordance with the requirements of the Act.


WSFR RESPONSE TO AUDITOR RECOMMENDATIONS

   1.	 WSFR feels it currently has appropriate internal controls to ensure that
       expenditures and obligations incurred in the administration of the Acts and are
       being properly reviewed and are approved. WFSR reorganized in 2007 and since
       has reviewed and re-emphasized internal controls and feels that any issues
       regarding non-payroll items within the program have been addressed. WSFR
       concurs that the documents must be reviewed and will continue to address this
       issue within the Program as part of its response to this audit. Steve Barton, Chief,
       Division of Administration and Information Management, will discuss and
       reiterate the internal controls policy at the WSFR Chiefs' meeting in November,
       2011 to ensure that all regional WSFR offices are aware of and are following the
       supervisor review policy. The Regional WSFR Chiefs (Fred Caslick (R-I), Steve
       Robertson (R-2), Jim Hodgson (R-3), Mike Piccirilli (R-4), John Organ (R-5),
       Dave McGillivary (R-6), Steve Klein (R-7) and Sue Detweiler (R-8)) will then
       discuss and reiterate the supervisory review policy with their staffs by November
       15, 2011. The Fiscal Chiefs of each regional office will also meet in May, 20 II,
       where the policies and procedures will be discussed. WSFR has requested that
       these supporting offices review the policies and procedures to ensure a more
       timely and accurate response in the future.


                                       Page 4 of5
                    United States Fish and Wildlife Service
                              Management Response To
Performance Audit ofExpenditures and Obligation Used by the Secretary ofthe Interior
in the Administration ofthe Wildlife and Sport Fish Restoration Programs Improvement
      Act 0[2000, Public Law 106-408, for Fiscal Years 2007-2008 and 2009-2010

  2.	 WSFR feels that appropriate policies and procedures are in place to ensure that
      documentation is properly maintained to support the assertion that expenditures
      and obligations were transacted in accordance with the requirements of the Act.
      WSFR concurs that the records must be retained until audited and will discuss the
      audit findings and the Service's policies on records retention as necessary during
      its scheduled weekly WSFR Chiefs' conference call, and will continue to address
      this issue within the Program as part of its response to this audit as well as with
      supporting offices. Steve Barton, Chief, Division of Administration and
      Infonnation Management, will discuss and reiterate the records retention policy at
      the WSFR Chiefs' meeting in November 20 I I to ensure that all regional WSFR
      offices are aware of and are following the records retention policy. The Regional
      WSFR Chiefs (Fred Caslick (R-I), Steve Robertson (R-2), Jim Hodgson (R-3),
      Mike Piccirilli (R-4), John Organ (R-5), Dave McGillivary (R-6), Steve Klein (R­
      7) and Sue Detweiler (R-8)) will then discuss and reiterate the records retention
      policy with their staffs by November 15, 20 II. A new document retention
      certification will be implemented by the regional divisions and submitted to the
      Assistant Director-WS FR each year. The WSFR fiscal officers of each regional
      office will also meet in May 20 II, where the policies and procedures will be
      discussed. WSFR has requested these supporting offices to review the policies
      and procedures to ensure a more timely and accurate response in the future.

      WSFR is committed to ensuring the proper use and expenditure of WSFR
      administrative funds. WSFR's CAP that addresses the auditor's
      recommendations is attached.




                                     Page 5 of 5
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, Departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             Departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doioig.gov

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            703-487-5435

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
